OIG Investigative Reports, Dorchester Man Sentenced For Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
United States Department of Justice
Michael J. Sullivan
U.S. Attorney
District of Massachusetts
United States Attorney's Office
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 02210
Press Office: (617) 748-3139
November 14, 2006
PRESS RELEASE
Dorchester Man Sentenced for Fraud
Boston, MA... A Dorchester, Massachusetts man was sentenced
yesterday in federal court
after pleading guilty to charges in connection with his fraudulently
obtaining Section 8 housing
benefits and student loans.
United States Attorney Michael J. Sullivan; Peter Emerzian, Special
Agent in Charge the
U.S. Department of Housing and Urban Development's Office of Inspector
General; Leo J.
Sullivan, Special Agent in Charge of the U.S. Social Security
Administration's Office of
Inspector General; and Gary E. Mathison, Regional Inspector General for
Investigations of the
U.S. Department of Education's Office of Inspector General, announced
that U.S. District Judge
George A. O'Toole sentenced DAVID MURRAY-MCCARTHY,
age 38, of
Dorchester,
Massachusetts, to 1 year and 6 months' incarceration. MURRAY-MCCARTHY
was also
ordered to pay restitution in the total amount of $138,929. On June 15,
2006, MURRAY-MCCARTHY
pleaded guilty to a three-count Information charging him with making
false
statements to HUD and the Department of Education and defrauding the
Social Security
Administration.
At the earlier plea hearing, the prosecutor told the Court that, had
the case proceeded to
trial, the evidence would have proven that MURRAY-MCCARTHY
under-reported his income
to HUD in order to receive Section 8 housing benefits. MURRAY-MCCARTHY
made the
false statement in 2004 while he was living in Burlington. MURRAY-MCCARTHY
also
defrauded the Social Security Administration between 2000 and 2005 by
claiming that he was
entitled to disability benefits. Although he claimed he was unable to
work, MURRAY-MCCARTHY
was actually employed at Verizon. Additionally, MURRAY-MCCARTHY
obtained federally insured student loans after defaulting on previous
loans by making false
statements to the Department of Education concerning his name, Social
Security Number and
loan history.
The case was investigated by the Department of Housing and Urban
Development's
Office of the Inspector General; the Social Security Administration's
Office of Inspector General;
and the Department of Education's Office of Inspector General. The case
was prosecuted by
Assistant U.S. Attorney George W. Vien in Sullivan's Public Corruption
Unit.
Press Contact: Samantha Martin, (617) 748-3139.
Top
Printable view
Share this page
Last Modified: 11/16/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov